7
f

No.

IN THE
SUPREME COURT OF THE UNITED STATES

NOLAN C. TURNER III — PETITIONER
vs.

DARREL VANNOY, WARDEN — RESPONDENT(S)
PROOF OF SERVICE
I, NOLAN C. TURNER III, do swear or declare that on this date,
January afl , 2021, as required by Supreme Court Rule 29 I have served the
enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PA UPERS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be
served, by depositing and envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names aid addresses of those served are as follows:
James E. Stewart Sr. District Attorney
Attention: Appeals Division
501 Texas Street Fifth Floor
Shreveport, LA 71101-5408
I declare under penalty of peijury that the foregoing is true and correct.
Executed on January^ . 2021

l
(Signature)

